<html>
<title> - OVERSIGHT OF THE GSA AND ENERGY EFFICIENCY IN PUBLIC BUILDINGS</title>
<body><pre>[Senate Hearing 111-1187]
[From the U.S. Government Publishing Office]




 
 

                                                       S. Hrg. 111-1187

                        OVERSIGHT OF THE GSA AND
                 ENERGY EFFICIENCY IN PUBLIC BUILDINGS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 22, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works



       Available via the World Wide Web: http://www.gpo.gov/fdsys

                              
                               _________


                     U.S. GOVERNMENT PUBLISHING OFFICE 

94-029 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001    
                          
                          
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                     
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             APRIL 22, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Cardin, Hon. Benjamin L., U.S. Senator from the State of 
  Maryland, prepared statement...................................   130
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   131

                               WITNESSES

Prouty, Paul F., Acting Administrator, General Services 
  Administration, Accompanied by: Tony Costa, Acting 
  Commissioner, Public Buildings Service; Bill Guerin, Recovery 
  Executive, Recovery Program Management Office, Public Buildings 
  Service; and Kevin Kampschroer, Acting Director, Office of 
  Federal High-Performance Green Buildings.......................     1
    Prepared statement...........................................     5
    Responses to additional questions from Senator Carper........    10
    Response to an additional question from Senator Lautenberg...    20
    Responses to additional questions from:
        Senator Cardin...........................................    21
        Senator Whitehouse.......................................    24
        Senator Inhofe...........................................    26
Gatlin, Doug, Vice President, Market Development, U.S. Green 
  Building Council...............................................    57
    Prepared statement...........................................    60
    Response to an additional question from Senator Carper.......    72
    Responses to additional questions from Senator Inhofe........    72
Burt, Lane, Energy Policy Analyst, Natural Resources Defense 
  Council........................................................    77
    Prepared statement...........................................    79
    Response to an additional question from Senator Carper.......    91
    Responses to additional questions from Senator Inhofe........    91
Bryan, Harvey, Professor, School of Architecture and Landscape 
  Architecture, School of Sustainability, Arizona State 
  University.....................................................    97
    Prepared statement...........................................    99
    Response to an additional question from Senator Carper.......   114
    Responses to additional questions from Senator Inhofe........   114

                          ADDITIONAL MATERIAL

Testimony of Associated Builders and Contractors.................   133
Statement from the American Forest & Paper Association...........   142
An Analysis of the Financial Performance of Green Office 
  Buildings in the USA...........................................   148
Statement from Independent Electrical Contractors................   190
Testimony of the National Association of Home Builders...........   193
Testimony of the National Energy Management Institute............   200
Information from the Sustainable Forestry Initiative.............   208
Study of the Effects on Employment of Public Aid to Renewable 
  Energy Sources.................................................   214
Research paper on Green Jobs Myths...............................   263

 
     OVERSIGHT OF THE GSA AND ENERGY EFFICIENCY IN PUBLIC BUILDINGS

                              ----------                              


                       WEDNESDAY, APRIL 22, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Inhofe, Lautenberg, Klobuchar, 
Udall, and Merkley.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. Happy Earth Day to all.
    We are going to skip opening statements because we want to 
get right to our panel. We have two purposes this morning. One 
is to see how we are doing on the Recovery Act, because there 
was a good chunk of money that we provided to GSA to convert 
their facilities to high-performance green buildings. We want 
to know how that is coming. That is the first thing.
    The second panel, we will hear from building and energy 
efficiency experts from outside of Government regarding the 
progress that has been made to date and the barriers to further 
improvement. We are working across the aisle to write some 
legislation to see if we can do more to move even faster and 
further on our GSA efficiency efforts.
    So with that, I am very happy to open it up and glad to 
have those of you here. There is a lot going on today. I think 
Al Gore is over on the other side of the building talking about 
global warming, and John Kerry, I just left a hearing, he is 
talking about the progress on the international side, of the 
treaty that we are working on global warming.
    So Mr. Prouty, why don't you go ahead and proceed.


  STATEMENT OF PAUL F. PROUTY, ACTING ADMINISTRATOR, GENERAL 
  SERVICES ADMINISTRATION, ACCOMPANIED BY: TONY COSTA, ACTING 
 COMMISSIONER, PUBLIC BUILDINGS SERVICE; BILL GUERIN, RECOVERY 
EXECUTIVE, RECOVERY PROGRAM MANAGEMENT OFFICE, PUBLIC BUILDINGS 
  SERVICE; AND KEVIN KAMPSCHROER, ACTING DIRECTOR, OFFICE OF 
            FEDERAL HIGH-PERFORMANCE GREEN BUILDINGS

    Mr. Prouty. Thank you very much.
    Good morning, Madam Chair, Ranking Member Inhofe and 
members of this Committee. My name is Paul Prouty and I am the 
Acting Administrator of the General Services Administration.
    Thank you for inviting me to appear before you on Earth 
Day. It is a fantastic opportunity for us to talk to you about 
the things we are doing to make our Federal buildings more 
energy efficient.
    I am pleased to discuss GSA's contribution to our Nation's 
economic recovery through green building modernization and 
construction. The funds Congress provided GSA through the 
American Recovery and Reinvestment Act are a sound investment 
in many respects. First, the money will help GSA reduce energy 
consumption and improve the environmental performance of our 
inventory.
    Second, the funds in large part will be invested in 
existing infrastructure. This will help reduce our backlog of 
repair and alteration needs and increase asset value, 
prolonging their useful life and ultimately further conserving 
our Country's resources.
    Third, the money will lessen our reliance on costly 
operating leases by providing more Government-owned solutions 
for long-term client requirements.
    Finally, we will stimulate job growth in the construction 
and real estate sectors and prompt long-term improvements in 
alternative energy solutions and green building and energy-
efficient technologies.
    Today, I will describe the steps we have taken to carry out 
the public buildings services portion of the Recovery Act. With 
me today are Tony Costa, Acting Commissioner of the Public 
Buildings Service; Bill Guerin, the recovery executive in our 
newly established Recovery Program Management Office; and Kevin 
Kampschroer, our Acting Director of the Office of Federal High-
Performance Green Buildings.
    It is not business as usual at GSA. We are moving forward 
with speed, tempered by careful consideration of our 
procurement responsibilities and our ultimate accountability to 
the citizens. To streamline business processes and provide 
tools and resources to assist GSA's regional recovery project 
delivery, we have established a nationally managed, regionally 
executed Project Management Office. The PMO works closely with 
counterparts in the core PBS organization to leverage resources 
and expertise.
    The PMO office develops and maintains consistent processes, 
policies and guidelines, manages customer requirements and 
expectations at the national level, drives successful project 
oversight and management, ensures accurate tracking and 
reporting of the Recovery Act funds, manages cross-agency 
resources, and enables PBS to adopt leading practices.
    PBS and the Program Management Office have moved forward 
quickly. On March 31, GSA on behalf of the Administration, 
delivered to Congress a list of 254 projects in all 50 States, 
the District of Columbia, and two U.S. territories to be 
completed with funds provided by the Recovery Act. These 
projects fall in the following categories: new Federal 
construction, full or partial building modernizations, and 
limited scope, high-performance green building projects.
    In the new Federal construction category, we will invest $1 
billion in 17 projects. In the building modernization category, 
we will invest $3.2 billion in 43 projects. And in the limited 
scope green buildings category, we will invest $806 million in 
194 projects.
    GSA selected the best projects for accomplishing the goals 
of the Recovery Act, based on a detailed analysis of a number 
of factors. Our goals in developing the list were to put people 
back to work quickly and to dramatically increase the 
sustainability of our buildings.
    Many of the projects in the new Federal construction and 
building modernization categories have previously received 
partial funding. We can start construction quickly on these 
projects, while also identifying ways that existing designs can 
be improved.
    These categories include projects such as the Bishop Henry 
Whipple Federal Building in Fort Snelling, Minnesota, a multi-
tenant office building project where heating, ventilation and 
air conditioning, plumbing, electrical and life safety 
improvements are expected to deliver a 23.6 percent energy 
savings. This is over and above the 20 percent in energy 
savings we have achieved in this building in recent years.
    Examples of the ways in which we will improve new 
construction and major modernization projects we have selected 
include thicker insulation than required by the newest energy 
codes in climates where it makes sense; installing variable 
frequency drives to reduce energy and extend the life of 
mechanical equipment; converting parking structure lighting to 
light emitting diode LED, which dramatically lowers energy 
consumption, improves safety and visibility, and reduces 
maintenance; retrofitting or replacing less efficient windows; 
and specifying dual flush toilets and waterless or low water 
urinals to save water and reduce demand on aging city sewer 
systems.
    An example of the innovative improvements we will be making 
in some of the construction and modernization projects is the 
Edith Green-Wendell Wyatt Federal Building in Portland, Oregon. 
As part of this project, GSA will install a new high-
performance double glass enclosure over the entire building, 
which will dramatically enhance energy performance and blast 
resistance. On the west facade, vegetative fins will provide 
shade, and reduce the load of the new high-efficiency heating, 
ventilation and air conditioning system that will be installed.
    These are just some of the green improvements that GSA will 
make as part of this project. We expect the building to attain 
a LEED gold rating.
    By using well-established contracting techniques, we can 
start work quickly and make simultaneous improvements on 
existing designs.
    In the limited scope category, we have identified a number 
of basic projects that can rapidly be deployed in many 
buildings at once, buildings as varied as Oklahoma City Federal 
Building, the Burlington Federal Building, U.S. Post Office and 
Courthouse, and the J. Caleb Boggs Courthouse and Federal 
Buildings in Wilmington, Delaware.
    Through these basic projects, we can make significant 
improvement to the energy performance of a building and also 
improve the working conditions for the people in them.
    Three examples of these improvements are installing 
intelligent lighting systems that provide daylight and controls 
for occupants to adjust for ambient light versus task light; 
replacing flat roofs with ENERGY STAR membranes, integrated 
photovoltaic panels bonded to the membrane or planted roofs; 
accelerating the installation of advanced meters, which is 
required to be completed by 2012 under the Energy Policy Act. 
Advanced meters enable us to better manage buildings by 
instantaneously providing information on buildings' energy use 
and encouraging immediate operational changes.
    For these projects, we have developed standard national 
scopes of work, some of which were provided by the national 
laboratories run by the Department of Energy. DOE's Federal 
Energy Management Program, in conjunction with the National 
Renewable Energy Laboratory has provided specifications for the 
four most common types of solar installation. The Commercial 
Buildings Program at DOE and the Pacific Northwest National 
Laboratory have provided specifications for three classes of 
lighting and control strategies. We have also developed 
standards using GSA's past projects as models.
    Today, I have described the unprecedented and exciting 
opportunity that lies before us to contribute to our Nation's 
economic recovery by investing in green technologies and 
reinvesting in our public buildings.
    Greening our buildings will be an ongoing process. As the 
Committee knows, the Energy Independence and Security Act of 
2007 and other laws require GSA, among other things, to reduce 
its energy consumption by 30 percent by 2015; reduce fossil 
fuel generated energy consumption in our new buildings by 
increasing amounts from 55 percent in 2010 to 100 percent in 
2030; and to green an even greater portion of our inventory. 
Although the Recovery Act will accelerate our progress in these 
areas, it alone will not enable us to meet these goals.
    We look forward to working with you and Members of this 
Committee as we engage in this important work.
    Madam Chair, Ranking Member Inhofe, this concludes my 
prepared statement. We will be pleased to answer any questions 
that you or any other members of this Committee may have. I 
would like to request that Messrs. Costa, Guerin, and 
Kampschroer join me for the questions.
    [The prepared statement of Mr. Prouty follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Well, Mr. Prouty, I just want to say I am 
very excited about your presentation. Would you like to 
introduce the people you brought with you?
    Mr. Prouty. I would very much like to do so.
    This is Tony Costa. He is the Acting Commissioner of the 
Public Buildings Service. This is Bill Guerin, who is running 
our recovery work for the Public Buildings Service. And Kevin 
Kampschroer, who is head of our Green Program.
    Senator Boxer. Wonderful.
    I am so happy we have been joined by Senator Lautenberg, 
who is such a leader in the whole area of green buildings and 
worked so hard to get some of those laws passed that you talked 
about.
    I want to just say people don't realize, and Senator 
Lautenberg, you and I know this, buildings are 39 percent of 
the problem when it comes to greenhouse gas emissions. So when 
we make a building green, we are not only saving money, we are 
not only improving air quality, but we are absolutely 
confronting head on the issue of greenhouse gas emissions and 
global warming.
    I have long believed, and you have, Senator, and I am sure 
you have all out there believed that the Federal Government 
ought to be a model when it comes to the environment. And today 
is Earth Day, and the reason I held this hearing is I want to 
make sure that you are on track with this stimulus bill. It 
sounds very good. And Senator, I am going to make available to 
you a list of all their projects that they have already decided 
they are going to do under the Stimulus Act.
    And what I also wanted to say just for the record is that 
GSA is the lessee or owner of over 354 million square feet of 
space in 8,600 buildings located in more than 2,200 communities 
nationwide. And you know, frankly, we have lost this 
opportunity before, but now this new President and this 
Congress believe that we can make a real difference if we take 
the lead here, not only in the actual improvements that will be 
made to the buildings, our buildings, the people's buildings, 
but also showing that yes, there is a model for everyone else 
to follow. I want us to be that model.
    So I will make sure that everybody has this list. I am 
looking to see what is going on in New Jersey. Yes, the 
Paterson, the Robert A. Roe Federal Building in Paterson, New 
Jersey is getting a big hunk of the stimulus money to make it 
energy efficient.
    Senator Lautenberg. The fact that I was born in Paterson 
has nothing to do with it.
    [Laughter.]
    Senator Boxer. Well, I am sure it is just a coincidence 
here, but you know, there is so much room for improvement.
    So I have just a couple of questions. Is there anything in 
particular, and I would ask all of you if you have a point, 
that this Committee can do to ensure the successful execution 
of the stimulus bill, otherwise known as the American Recovery 
and Reinvestment Act? Are you experiencing any problems, 
issues? And in your answer, could you tell me if most of these 
improvements are being done in-house or are they contracted out 
to the outside work force? And how is the new National Recovery 
Executive Office operating to ensure that all these projects 
are on track? Have you had any interaction with them, because 
this Committee needs to oversee GSA.
    We want to make sure, A, any problems you are having on 
execution, how this National Recovery Executive Office is 
working, and are you contracting out for most of these things 
or doing them in-house?
    Mr. Prouty. First of all, as far as any help we might need, 
we at this point think that we quite frankly have all the help 
that we need in all regards.
    Senator Boxer. Good.
    Mr. Prouty. This is a massive amount of funding and it is a 
huge opportunity and we are up for the task.
    As far as who is going to be doing the work, it is 
primarily contracted out. Obviously, we have a staff that 
manages the contracts for that.
    Senator Boxer. So this is a boon to a lot of our businesses 
across this Country. Is that correct? Out of all the 
contracts--and I know I am interrupting you, but I am sorry--
out of all the contracts you will be letting, how many have 
been let already, do you think? Probably a small percent, I 
would think at this point.
    Mr. Costa.
    Mr. Costa. Madam Chair, our plans are to award over $1 
billion worth of project contracts by August, and so far----
    Senator Boxer. A billion of the 4 billion?
    Mr. Costs. A billion of the $5.5 billion.
    Senator Boxer. OK. By August? And the rest?
    Mr. Costa. The rest throughout the 18 months that we have 
to spend the rest of the money.
    Senator Boxer. Well, let me just say to you, and I know our 
President has said this, the point of the stimulus bill is to 
be a stimulus to this economy. In my State, I can only tell 
you, 11.2 percent, the fifth worst unemployment. So we need 
these funds to get out there, and we are going to be working. I 
know that President Obama's team also believes that.
    So that leads me to his National Recovery Executive Office. 
Tell me, how is that working? Are they working in a good way 
with you?
    Mr. Costa. From the standpoint of outside of GSA, the 
recovery?
    Senator Boxer. Yes.
    Mr. Costa. They have provided great support. We work 
closely with them in two basic areas. As you know, there is a 
lot of reporting that goes beyond anything we are used to that 
we are going to be responding to. We think that is a great 
thing because it will be not only better for us to manage our 
own work, but letting the public and our stakeholders know how 
we are doing actually is a great continuing check for us. So we 
are looking forward to that and we have been working closely 
with the recovery folks on doing that.
    GSA is actually helping to manage recovery.gov, the 
mechanism that is being used to pull all that information 
together. So we are both involved.
    Senator Boxer. Well, let me just say as Chairman of this 
Committee, and I know I speak for Senator Inhofe on this, if 
you run into any difficulties making this happen in any way, 
you need to let us know. We want to encourage you to move 
quickly, of course carefully, but quickly because the point of 
the stimulus is just that. You know, to get a billion out by 
August is good, but that leaves you with the bulk of the funds, 
so we encourage you.
    I guess my last question to Mr. Prouty at this point is, do 
you have enough staff to get this done? I trust you are using 
some of this to staff up. Is that correct?
    Mr. Prouty. That particular money is not going to be what 
we use for staffing, but we do have funding for additional 
staff. We have been working with the Office of Personnel 
Management to look for opportunities. We are going to bring 
back people who previously worked for us.
    Senator Boxer. Good.
    Mr. Prouty. Obviously, there are some contracting vehicles. 
We don't expect a large increase in permanent staff, but 
temporary staff we do expect.
    Senator Boxer. I think that is key, because otherwise, the 
funds won't get there.
    Now, I will tell you that I am working on a bill now with 
my colleagues on both sides of the aisle to do even more with 
GSA. I know our staff has been in close touch with you, and we 
are just about ready to get that bill done. Is that correct, 
Bettina? And so we will run it by you to make sure that it is 
right where you want it to be and it is a reasonable bill. But 
you know, my view is very strongly felt that we can be the 
model, and that is what we should be.
    We can't talk the game and not, you know, really walk the 
walk. So I am very happy with what you have said today. I am 
very happy at the spirit that I feel. I feel this is a new 
time, new challenges. Everything you do will be marked. As 
Chairman, I intend to go to visit some of these programs as 
they get down the road a bit just to make the point of what we 
are doing.
    So with that, let me call on Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    Thank you, Mr. Prouty and your team, for doing the work 
that you are. We are very encouraged by the early signs, I must 
tell you. It is not the most glamorous part of assignments in 
the Government. On the other hand, it is because there is a 
question of believability in the public's minds whether or not 
green can be that good for you. When a person has lost a job or 
the economy is so shaky in front of us, it is a little hard to 
say, OK, we are going to swap that kind of reality for a green 
mission, one that will make our Country healthier, our 
families.
    As a matter of fact, I think Earth Day ought to have been 
perhaps called something like Good Health Day, or Save the 
Children Day, something that connotes a little more directness 
and serious tone to things.
    So I was happy, Madam Chairman, that the legislation that I 
wrote in 2007 established the targets, established the mission, 
established the Office of Federal High Performance Green 
Buildings at GSA.
    What kind of a role, Mr. Prouty, has that office taken on 
to help get the reductions that are already there? We are using 
26 percent less energy than we did just few years ago. That is 
a major victory, or a major step forward. What did that office 
have to do with it?
    Mr. Prouty. Excuse me, if I may. That office obviously has 
a large role Government-wide and also a large role in GSA. 
Kevin Kampschroer is leading that office. If I might, I would 
like to have him answer that question.
    Mr. Kampschroer. For the last year when the office was 
created by the Energy Independence and Security Act, and then 
by the Administrator of General Services shortly thereafter, we 
have been working with other Federal agencies to make sure that 
the work of every agency is in concert with the others, both in 
energy reductions and the improvement of high-performance green 
buildings across the Government.
    With regard to the application of those things, the work 
that we did for the year enabled us to be poised when the 
Recovery Act was passed to be able to make some very good 
judgments very quickly on the projects that would be most 
likely to yield the greatest returns in high-performance 
improvements in the buildings. And those were the sets of 
criteria that we were able to use.
    We made use of the national labs, as the Administrator 
mentioned in his statement, to help us analyze these data, and 
also yield the limited scope, high-performance green building 
projects that comprise the bulk of the number of projects on 
the list, which are really focused on making the highest return 
improvements both in the areas of building tune-up, building 
mechanical systems improvements, and the lighting. Lighting in 
particular because the technology has changed so significantly 
over the last decade in lighting that we can make significant 
improvements even in the case of a retrofit that might have 
been done 10 or 15 years ago, which many were in our buildings.
    And last, we are using in the case of roof replacement sort 
of the judicious application of every form of renewable energy 
generation that is appropriate both for the geographical 
location and the physical configuration of the roof. So we have 
some 20-odd projects where photovoltaic, for example, 
generation will be included at the same time as dealing with a 
significant infrastructure problem within our inventory, that 
is to say leaking roofs and about 40 or so leaking roofs across 
the Country. As a part of the Recovery Act, we will be 
repairing every major leaking roof in our entire inventory.
    Senator Lautenberg. I am sure that would be good news to 
lots of people around the Country.
    How many jobs might you think were created as a result of 
that effort, this reduction in energy use? Were these jobs that 
were handled within it sounds like a relatively simple program 
because of the changes in technology in light bulbs and so 
forth? How much of that was responsible for the reduction? And 
did we have any significant job gain out there as a result of 
this?
    Mr. Kampschroer. Senator, we estimate based on a couple of 
different studies that we researched, and we are not 
economists, but based on the models that we have read about, we 
believe that for every billion dollars of Recovery Act funding 
in the construction arena, there will be 28,000 jobs created 
across the Country in all different categories. They might be 
construction jobs. They might also be design jobs in many 
different professions. And that is a rough estimate. It is 
maybe not the world's best economic model, but it is what we 
were able to find.
    Senator Lautenberg. So that is a future expectation. I am 
really struck by this reduction in energy use of 26 percent. 
That is over a period of a couple of years. Is that right?
    Mr. Kampschroer. Nearly 30, yes, sir.
    Senator Lautenberg. Nearly 30 years?
    Mr. Kampschroer. Yes.
    Senator Lautenberg. Oh, so we are going back a lot further 
than I thought. Did we start in a serious way 30 years ago 
trying to install less energy, lower energy projects?
    Mr. Kampschroer. Between 1985 and 2005, in GSA's inventory 
we reduced the overall energy consumption compared to the 
baseline by 30 percent, and the Government as a whole by 26 
percent during that same period.
    Senator Lautenberg. OK. So this wasn't induced by the 
legislation that was passed in these last couple of years. This 
was a continuation of programs that were begun before.
    Mr. Kampschroer. That is correct. And since the legislation 
was passed in the last several years, beginning with the Energy 
Policy Act in 2005 and the Energy Independence and Security Act 
of 2007, the goals were increased first double and then triple 
what they had been in previous laws. So now whereas we reduced 
by 30 percent in 30 years under the old laws, our goal today is 
30 percent in 10 years. And GSA is currently on track to meet 
that goal as well. So we have significantly increased our 
efforts in energy reduction even before the Recovery Act was 
passed.
    Senator Lautenberg. Yes. Because one of the things that we 
see in the testimony is that GSA, among other things to reduce 
energy consumption, the goal is 30 percent by 2015. Now, is 
that a goal that was established based on the energy 
consumption of 2007? Are we looking at a 2-year reduction? I am 
sorry, in the 8-year period a reduction of 30 percent in fossil 
fuel use?
    Mr. Kampschroer. There are two interrelated goals in the 
law. First of all is to reduce by 30 percent in 10 years with a 
baseline of 2003 consumption in the buildings. So we reset the 
baseline in 2003. As a part of that resetting the baseline, we 
also increased the number of buildings that are being measured.
    And second, we have a goal of reducing compared to private 
sector the fossil fuel consumption of our buildings by 55 
percent for those buildings that are under design today, either 
new construction or major modernization, and then that number 
between 2015 and 2030 ratchets up from 55 percent below to 100 
percent below. So by 2030, our goal will be to design and 
deliver buildings that consume no fossil fuel energy.
    Senator Lautenberg. That is a terrific target. We hope you 
don't miss it.
    Mr. Kampschroer. Every project on the major modernization 
list is being designed to use 55 percent less fossil fuel than 
the commercial equivalents.
    Senator Lautenberg. And one last thing. You talk about 
releasing $1 billion by August for projects. What would you say 
would be the principal programs that would help you achieve 
your goal that this $1 billion will foster? And how long might 
it be before we see that return on the $1 billion that we can 
talk about?
    Mr. Guerin. Senator, we have a series of things that we are 
working on. We have several large projects that we are getting 
ready to award that were designed and on the shelf ready to go. 
An example of that would be the Austin Courthouse. We have a 
series of programmatic activities, as Kevin was describing. The 
single system projects in buildings that we will be pursuing in 
the short term to get those awarded as well.
    Senator Lautenberg. What are the single system projects?
    Mr. Guerin. Like photovoltaics or the new roofs that Kevin 
was referring to earlier. Those types of projects that can be 
installed fairly quickly into buildings, we are going to design 
and get those awarded as quickly as we can.
    And then finally, we have a series of additional phases and 
completions of projects that were waiting for funds, and we are 
awarding those very quickly as well.
    Senator Lautenberg. And this $1 billion will respond to the 
formulas as we heard. How many jobs are created with each $1 
billion expended?
    Mr. Kampschroer. Roughly 28,000, sir.
    Senator Lautenberg. Thanks.
    Thank you, Madam Chairman.
    Senator Boxer. You have gone almost 5 minutes over. I am 
trying to get to the next panel because of their time 
constraints.
    Senator Lautenberg. Fine. Thank you.
    Senator Boxer. And Senator Lautenberg, I think pressing on 
this is important because we are going to see job creation, 
green job creation right here.
    So we want to thank all of you.
    And Kevin, will you do me a favor and just put into the 
record your recommendations of what more we can do as a 
Committee to give you even more resources for more green in our 
buildings, as we write our new legislation?
    Mr. Kampschroer. Thank you. I would be happy to do so.
    Senator Boxer. Thank you so much.
    And thank you all. We are very proud of the work you are 
doing. We love this attitude of yes we can. Who said that?
    [Laughter.]
    Senator Boxer. Who says, yes we can?
    Senator Lautenberg. [Phrase in Spanish].
    Senator Boxer. [Phrase in Spanish]. It sounds even better 
in Spanish.
    Will our next panel come up? Very happy to have you here.
    And now we are going to have a vote, Senator Lautenberg, on 
our global warming legislation.
    I move it. Is there a second?
    Senator Lautenberg. I second.
    Senator Boxer. OK. I don't see Senator Inhofe here. What a 
shame.
    [Laughter.]
    Senator Boxer. OK. Just have to have a little sense of 
humor as we move forward. Thank you.
    Our second panel: Doug Gatlin, Vice President, Market 
Development, U.S. Green Building Council; Lane Burt, Energy 
Policy Analyst, Natural Resources Defense Council; Harvey 
Bryan, Ph.D., School of Architecture and Landscape, School of 
Sustainability at Arizona State.
    Are all three of our folks here? Yes, good. And we are very 
happy to have you here. What we really want is to follow your 
leadership on what more do you think we can do to make the 
Government a real model of green. If we do that, I know I speak 
for Senator Lautenberg and myself, we think this is a great way 
to not only make measurable progress on greenhouse gas emission 
reductions, but also to be a model.
    So Mr. Gatlin, would you like to start off? U.S. Green 
Building Council, Market Development, thank you.

 STATEMENT OF DOUG GATLIN, VICE PRESIDENT, MARKET DEVELOPMENT, 
                  U.S. GREEN BUILDING COUNCIL

    Mr. Gatlin. Madam Chair, thank you very much, and Ranking 
Member Inhofe, on behalf of the U.S. Green Building Council's 
20,000 organizational members and 78 local chapters. We would 
very much like to thank you and the Committee for the 
opportunity to testify about the role that the U.S. General 
Services Administration can play in improving the energy 
efficiency and sustainability of Federal buildings.
    My name is Doug Gatlin and I am the Vice President of 
Market Development for the U.S. Green Building Council.
    We have an opportunity before us as a Nation, an 
opportunity to reach out and grab from an enormous pool of 
untapped resources lying virtually under our noses. I am 
referring to the flows of energy, water and materials that are 
consumed in our buildings and homes each day. By marshaling a 
combination of new efficiency technologies, integrated design, 
and targeted building management practices, we can tap into 
these flows and collectively achieve a 30 percent or greater 
reduction in energy consumption and even more substantial 
reductions in water consumption and solid waste generation.
    As you know, buildings are responsible for 38 percent of 
U.S. greenhouse emissions every year and consumer 13.6 percent 
of all fresh drinking water, as well as 40 percent of raw 
materials globally. Recognizing this impact, green buildings 
are an essential element of both an energy security strategy 
and a climate change response.
    The potential returns are tremendous. According to a 2007 
report by McKinsey and Company, improvements in the efficiency 
of buildings and appliances could generate $160 billion in 
cumulative savings by the year 2030. Now, tune-ups to building 
systems and equipment known as existing building commissioning 
present opportunities for greater savings without any new 
capital investment. Commissioning of existing buildings can 
improve energy efficiency by roughly 15 percent additional at a 
median cost of only 27 cents per square foot. This offers an 
attractive payback of roughly 6 months.
    In the Federal sector, this could translate into some $650 
million in annual savings if the entire Federal stock were 
simply to be recommissioned or tuned up. Again, that is for 
roughly 25 cents per square foot in buildings that typically 
costs hundreds of dollars to build, and three to five dollars a 
square foot just to operate. And this will create thousands of 
new highly skilled jobs in the buildings trades and in 
particular in the mechanical service contracting arena because 
it is a virtually new service.
    With an inventory of more than 1,500 Government-owned 
buildings and 7,000 leased spaces, GSA is a critical partner in 
the effort to reduce the environmental impact of our buildings. 
GSA has already taken several significant steps to improve its 
stock, including requiring that all new capital projects and 
major renovation projects earn LEED certification. These 
projects are yielding significant results. A 2008 GSA study of 
12 green buildings in its portfolio found that the buildings 
achieved a 30 percent reduction in energy usage and a 13 
percent decline in average maintenance costs.
    And last month, USGBC certified the world's first LEED 
platinum-level building under our new existing buildings 
operations and maintenance rating system. It is occupied by the 
FBI in Chicago and it is leased through GSA. Numerous other 
Federal projects have made similarly impressive strides.
    Green building efforts stand to become an even greater 
focus of GSA through the work of GSA's Office of Federal High-
Performance Green Buildings, coupled with the $5.5 billion 
received by GSA through the American Recovery and Reinvestment 
Act. Importantly, the bulk of GSA's Recovery Act funds are 
dedicated to a mix of new construction and major renovation 
efforts in approximately 60 key projects.
    The remaining funds for limited scope upgrades can be 
augmented even further to greater ends through public-private 
partnerships in the form of energy saving and green performance 
contracts, and we recommend an increased adoption of these 
measures by GSA. This is crucial, as the average age of the 
Federal building stock is now currently right at 50 years on 
average. So significant opportunities exist.
    Green performance contracting draws upon an integrated 
approach to encompassing energy and water-saving measures, as 
well as features designed to improve the indoor health and 
environmental quality of the buildings. Combining this model 
with third party verifications such as that provided by the 
LEED system can ensure that the buildings are both sustainable 
and achieve optimal cost reductions. Expanding GSA's authority 
to enter longer renewable power purchase agreements presents 
similar opportunities for greening the Federal sector.
    On Monday, April 27, the U.S. Green Building Council will 
be launching our newest version of the LEED rating system. We 
call is Version 2009, and we will also be adding a new customer 
data entry platform which can accommodate up to one million 
registered building projects. All told, this is for our 
organization a more than 1,000 percent increase in our current 
system capacity and we are doing this because of the enormous 
exponential growth in demand for green building certification.
    In sum, green building improvements to our existing stock 
are so good that we really just can't afford not to do them. 
They are cheap. In fact, they are profitable. They are good for 
the planet and they are available immediately.
    Thank you for your time and I would be happy to take any 
further questions.
    [The prepared statement of Mr. Gatlin follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you.
    Mr. Burt.

    STATEMENT OF LANE BURT, ENERGY POLICY ANALYST, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Mr. Burt. Thank you, Madam Chair, Senator Inhofe, and 
members of the Committee. Thank you for inviting me to testify 
on energy efficiency in public buildings. My name is Lane Burt 
and I am an Energy Policy Analyst with the Natural Resources 
Defense Council. I am NRDC's principal advocate for Federal 
policies that promote building and equipment efficiency.
    The topic of discussion today is extremely timely as we 
continue to discuss how to reduce global warming pollution 
while contributing to our economic recovery. Energy efficiency 
can do both of these things. Energy efficiency is the fastest, 
cleanest and cheapest energy resource that we have and it can 
help us fight global climate change and reduce our addiction to 
oil and revitalize our economy.
    The opportunity for energy efficiency in our buildings is 
tremendous. U.S. buildings are the largest single source of 
global warming pollution in the United States and the site of 
countless opportunities for efficiency improvements.
    I would like to call your attention to this chart on the 
left--your right, excuse me--that NRDC has developed from the 
2007 study by McKinsey and Company, detailing the cost and 
scope of reducing global warming pollution. The column on the 
far left, highlighted in red, represents building efficiency. 
The building efficiency measures not only have the largest 
potential emission reductions of any option, but they also have 
net negative costs, making money over time.
    The conclusion is clear: building efficiency makes sense no 
matter when or why it is being considered. In the context of 
global climate change, building efficiency is imperative.
    As the owner of a huge portfolio of buildings, the Federal 
Government has a vital role to play in reducing emissions from 
the buildings sector. We can cut emissions and keep future 
taxpayer dollars from being unnecessarily wasted on energy if 
we pursue efficiency opportunities. The GSA, as the Federal 
Government's landlord, should lead the charge for all Federal 
agencies on increasing energy efficiency.
    Improving commercial buildings is faster and results in 
larger savings per building than retrofits in the residential 
sector, making this sector ideal for near-term investment. 
Federal facilities are nearly three times the size of the 
average commercial building, making the opportunity even 
greater.
    Reducing costs to taxpayers is important, however there are 
additional benefits to be had as the GSA is an ideal laboratory 
for cutting edge building improvements that could generate even 
greater savings in the private sector. Agencies can utilize 
emerging technologies and design strategies, thereby increasing 
their market penetration and helping to bring down the price.
    Water efficiency is also vital, as the economic 
consequences of shortages demonstrate that water is more than 
an environmental issue. To maximize energy and water savings in 
the Federal facilities and lead the private sector, the GSA and 
all Federal agencies should prioritize efficiency improvements 
with their recovery funds. GSA has already demonstrated 
impressive improvements in complying with the requirements of 
the Energy Independence and Security Act of 2007 and they 
should continue this progress with the use of ARRA funds.
    Specifically, we suggest that GSA release savings targets 
for energy, water and emissions in each project and document 
their success in meeting those targets. Documenting the savings 
in every building is the best way to oversee the progress of 
the agency, identify problems, and demonstrate success.
    The GSA should also create a strategy for attaining all the 
remaining cost-effective energy efficiencies in their 
facilities, share best practices with State and local 
governments and the private sector, and share its most 
effective building energy management strategies across agencies 
to encourage further improvements.
    There are also opportunities for GSA to lead by utilizing 
new tools. NRDC has developed, with stakeholders from all 
aspects of commercial real estate, an energy efficiency lease 
that seeks to properly allocate the costs and benefits of 
efficiency improvements between owners, tenants and brokers. 
This is intended to address the market barrier of split 
incentives where the owner cannot profit from efficiency 
improvements because the tenants pay the energy bills. The GSA 
and other agencies should offer this lease structure to its 
building tenants, while requesting this structure of building 
owners in spaces it leases.
    The Federal tax deduction for energy efficient commercial 
buildings can also be utilized by Federal facilities because it 
contains an option to assign the deduction to the designer or 
engineer responsible for the improvements. GSA should consider 
utilizing the deduction in all projects.
    In conclusion, Federal facilities should lead by pursuing 
all cost-effective energy efficiency measures to reduce the 
energy costs of these facilities. We welcome the Committee's 
leadership on Federal building energy efficiency and I thank 
you for allowing me to present these views.
    This concludes my testimony.
    [The prepared statement of Mr. Burt follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thanks, Mr. Burt.
    Dr. Bryan.

 STATEMENT OF HARVEY BRYAN, PROFESSOR, SCHOOL OF ARCHITECTURE 
 AND LANDSCAPE ARCHITECTURE, SCHOOL OF SUSTAINABILITY, ARIZONA 
                        STATE UNIVERSITY

    Mr. Bryan. Chairman Boxer, Ranking Member Inhofe and 
Members of the Committee, thank you for this opportunity to 
honor Earth Day by participating in this hearing on behalf of 
the Green Building Initiative or GBI, and the Green Globes 
rating system.
    I am a founding member of the GBI Board and Chairman of the 
Energy Committee. My background is included in the written 
submittal.
    I am a specialist in energy issues and served on the ASHRAE 
Committee responsible for developing the 90.1 national energy 
standard. While currently active in the development of Green 
Globes, I have also been active in the U.S. Green Building 
Council. I am a LEED-accredited professional, and helped 
shepherd several buildings through the LEED process, and was 
founding member and was board member of the Arizona USGBC 
chapter.
    As an active member of the Green Buildings community, I 
chose to support the development of the Green Globes system in 
the United States because I believe strongly that the 
marketplace needs multiple tools and approaches to achieve 
high-performance buildings.
    GBI commends the Committee for creating this opportunity to 
testify about GSA and energy efficient issues, and we are 
honored to be on this panel.
    GSA has certainly been a leader in applying green building 
practices and has made considerable progress. There are many 
lessons to be gained from this experience. We also understand 
that the Committee is interested in ensuring that dollars spent 
on energy efficiency through the stimulus package results in 
measured savings. To this end, we would like to address two 
primary topics.
    First, one of our greatest challenges is that many 
buildings designed to be energy efficient fall short once 
operational. GSA has many successes to its credit, but it is 
not immune to this fact. A key to solving this problem will be 
to shift the mind set of people who design, construct and 
operate buildings so that form follows function and 
performance, and become fundamental considerations from initial 
concept through design, construction and operations.
    The second issue is measuring and specifically the fact of 
measuring buildings before and after they undergo renovations 
must be a priority. To this end, the Green Globes system is a 
good example of how practical and affordable tools can play 
that important role.
    Regarding the first issue of performance shortfalls, the 
answer is better information, tools and education. Whether 
planning for a new or major retrofit, decisions should be based 
on the best performance data available. This is the area where 
we as an industry have fallen short. We rely too heavily on 
benchmarking to code. For instance, GSA has, as I understand, 
an arsenal of data available on the energy performance of its 
standard building pipes and has conducted baseline research on 
occupant comfort in many of the buildings. And so this should 
be used as the primary data base, rather than building better 
than code.
    It is worthwhile to note that innovative States such as 
California have created new building performance data bases to 
facilitate more accurate prediction because it is important to 
have accurate historical performance data. In fact, the 
Department of Energy's commercial building energy consumption 
survey should receive more funds for investment.
    With regard to education and training, portfolio managers 
need tools to create baselines and interpret these results and 
prioritize improvements. For many building managers, this type 
of evaluation requires new tools.
    Unfortunately, GSA has, in conjunction with DOE, has 
recently written a policy that calls for the use of only one 
rating system, LEED, for all Federal buildings that seek green 
building certification for either major retrofit or new 
construction. This approach not only supports a federally 
mandated sole source contract with one organization, the USGBC, 
the owner of the LEED system, but also stifles benefits and 
competition, which there are many.
    Because of the affordability and ease of use, Green Globes 
has been used to evaluate a number of public and private sector 
buildings. Federal agencies such as DHHS, Interior, Veterans 
Affairs and State Department have used Green Globes.
    In conclusion, GBI applauds GSA's leadership in applying 
green building technology and practices. We hope that the 
important part of the agency's plan will be to measure before 
and after performance of buildings. We encourage Congress to 
examine public policy in regards to new laws encouraging 
benchmarking tools such as CBECS data base.
    Last, we ask the Committee to give direction to GSA to 
support the use of multiple rating systems and private sector 
solutions to encourage competition in the marketplace.
    Thank you for this opportunity today.
    [The prepared statement of Mr. Bryan follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Senator Boxer. Thank you, sir.
    I would like to say, of course we need to measure. That is 
absolutely essential. We want to make sure that when we spend a 
dollar, we get more than that over time, and that is something 
that I think everyone agrees with. Otherwise, we are wasting 
our time and money.
    I wanted to announce here, and Senator Lautenberg you would 
be interested in this, Wal-Mart just put out a press release 
just now that to broaden their sustainability efforts, they are 
expanding their solar power program in California over the next 
18 months at 10 to 20 additional Wal-Mart facilities. It is 
very exciting because we know the jobs that will go with this. 
They say increasing the use of solar is the right thing to do 
for the environment and makes tremendous business sense, 
especially in these economic conditions.
    I think it is important to note a lot of my colleagues are 
saying this isn't the time to do anything. It is the opposite. 
When you move toward energy savings, it is going to be better 
for the economy, for job creation. And they say that they are 
committed to expanding their solar presence in California. I 
would say it is because California's laws are so incentivizing 
to putting in solar, wind and geothermal.
    Mr. Gatlin, you mention in your testimony that GSA has 
adopted your organization's green building rating system, which 
I support. And it has set a goal for each project to receive at 
least the silver certification. Now, there are two higher 
certifications.
    Is there any reason, and I would ask Mr. Burt the same, why 
we shouldn't shoot higher for a platinum or a gold?
    Mr. Gatlin. Well, I will just say that the USGBC has 
attempted to set a benchmark target for green performance 
without being prescriptive in any way about what measures or 
pathways that organizations have to take. So we actually have 
four certification levels, including basic, silver, gold and 
platinum.
    In a post-occupancy study that the New Buildings Institute 
conducted for us 2 years ago, they found almost a lockstep 
correlation of energy savings and the increased certification 
levels on LEED, with platinum buildings achieving typically 40 
percent energy savings.
    So given the principle that the savings will actually pay 
for the up-front investment, it in many cases is a good 
investment. I think that GSA is simply setting a target that 
they think is achievable, given that platinum buildings in many 
cases require an all-out effort to use all available new 
technologies and practices. So I think they would rather go 
broad and achievable, rather than set a target that may be only 
for a subset of their portfolio.
    Senator Boxer. Mr. Burt, what is your feeling? If you are 
retrofitting, is it really too hard to get to the platinum, but 
we should have that for our new buildings? What is your 
feeling?
    Mr. Burt. I think it is important to document which part of 
the different LEED categories we are emphasizing. So if we have 
an overall target of LEED silver, but a very aggressive target 
for energy and water savings, then you may find that eventually 
in constructing a new building or renovating a new building, 
you actually may certify higher than silver to a gold or 
platinum level, and you have prioritized those measures which 
will provide the most return on investment.
    Senator Boxer. That is not my question. Do you think that 
we should shoot for higher than silver in our efforts?
    Mr. Burt. Yes. I think it is possible to shoot for higher 
than silver. I think there are precedents across the Country 
where different cities have pointed to LEED silver as a 
possible code target, which means that the enhanced performance 
should be above this bar.
    Senator Boxer. And am I right in saying it is obviously 
easier to get to platinum if you are building a new building, 
because then you could--you don't have to go backward?
    Mr. Gatlin. That is not necessarily the case. I would also 
just like to comment that we hope that GSA will embrace the 
LEED system for operations and maintenance. It is a 
benchmarking system for green operations and maintenance just 
as aggressively as they have embraced our system for design and 
construction.
    Senator Boxer. Well, that is good.
    Mr. Gatlin. There are just so many different paths to get 
there. We did have a case study of a building in California 
owned by the Adobe Company that was built to Title 24 
California energy efficiency standards, had utility rebates, 
and yet they were still able to identify an additional $1 
million in green investments. They have made that existing 
building platinum. It paid for itself in 10 months.
    Senator Boxer. Wow. That is a fabulous, I know Adobe 
Systems.
    Well, what I am going to do is hand the gavel to Senator 
Lautenberg. If he has to go, leave, then he can hand the gavel 
to Senator Merkley. And if Senator Merkley promises me, if 
another colleague comes, he stays for that, and then close it 
down. I don't know how long Senator Lautenberg can stay.
    So I am going to hand the gavel over to you, Senator.
    I want to thank this panel very much, all of you, for your 
sage words. We are going to move further. We are going to have 
a bill here ready for mark up on the 7th of next month. We are 
going to move even further because this is energy saving. This 
is savings in the pockets of taxpayers. So thank you very much.
    Senator, here is the gavel.
    Senator Lautenberg [presiding]. Thank you. I take the gavel 
without ceremony, Madam Chairman.
    [Laughter.]
    Senator Lautenberg. Thank you for this awesome 
responsibility.
    One of the things that I see happening is that as we talk 
about product reductions in energy use, cleaner air emissions, 
et cetera, we still I think fail to have the public understand 
exactly what our mission is. When we talk about saving lives or 
saving quality of life, or permitting those who may be impaired 
with a respiratory disease, what it means.
    I come on this sort of full boat because one of my 
grandchildren is asthmatic, and I know the trials that my 
daughter goes through to make sure that Alexander has, that she 
knows where the nearest clinic is when they go to emergency 
clinic, when they go for him to participate in an athletic 
event. And she is conscious of his wheezing and the sensitivity 
of his ability to deal with these things.
    I lost a sister to asthma in a sudden attack when she was 
53 years old. Yes. And so I think the picture has to be even 
more clearly presented, that we are talking about, again, 
saving lives. And even as we talk about saving money, saving 
quality of life that permits people to go about the things they 
must do or enjoy doing.
    And so I commend you all. I think you are on a mission of 
great importance to the human race. I believe that climate 
change is something compared to a plague, perhaps the 11th 
plague. The Old Testament lists 10 plagues. This is a plague if 
we don't take care of this, that could overcome mankind, 
humankind. And again, you are acting as good soldiers in this, 
and I really respect that your organizations are on the right 
track.
    Isn't there a way of examining the emissions coming from 
the buildings that go beyond simply energy efficiency? How 
about the products that are used in building materials, more 
the kind of boards that are used so commonly--pressboard and 
other materials that in themselves, we talk about saving kids 
from materials that are plastics, that have a different 
metabolism when they are mixed with certain food products, et 
cetera.
    So is there a concern about that? Mr. Burt, does your 
organization look to these things as well?
    Mr. Burt. Certainly, that is an extremely important 
concern. I would say that in an existing building when you take 
a look at the materials that are in there, you need to make 
sure that all the materials and everything in the building is 
up to health and safety standards, and is a healthy environment 
for the occupants, and then go and invest in the energy 
efficiency and the water efficiency measures.
    I would also point out that in the LEED rating system, 
there is a category for indoor environmental quality, which 
covers the off-gassing of chemicals and toxins from the 
products and also makes sure that there is adequate ventilation 
in the building.
    Senator Lautenberg. And is there an official recognition of 
products now, an examination of these things, and perhaps a 
label that says yes, this meets a green standard? What do you 
think, Mr. Bryan?
    Mr. Bryan. Yes. There are several organizations that are 
now testing all products in the building industry for 
emissions. Green Seal and Green Guard are two organizations 
that are doing that. Both the Green Globes system and LEED also 
acknowledges those as protocols for use within the indoor air 
quality section.
    Senator Lautenberg. Is the Green Globes, is that a 
lighting?
    Mr. Bryan. No. Green Globes is a system that I have been 
talking about which is sort of a parallel system to some of the 
other rating systems like LEED and other systems that are out 
there that are in the marketplace today.
    Senator Lautenberg. I see. No, because immediately when you 
think of globe, you think of----
    Mr. Bryan. I understand.
    Senator Lautenberg. Yes.
    Mr. Bryan. But again, Green Seal and Green Guard are two 
protocols, both systems used to acknowledge material impact. 
The Green Globes system also does a material life cycle 
assessment calculation that actually does comparisons between 
products on both embedded energy, as well as impact to the air, 
water and disposal landfill. And so it is a very robust 
calculator that gives designers that information about the 
impact those materials have on the occupants of those 
buildings.
    Senator Lautenberg. Is there interest in those using 
products--this is stepping outside the building opportunities--
products that have to be dealt within trash disposal and so 
forth? All of these things combine to make a threatening 
environment. In this case, we are talking about something where 
we see an ability to control it. The Government, there is a lot 
of might that is included in the suggestion that the Government 
has a standard.
    But when we look around, again I see this as the perhaps 
most important problem that mankind faces, and that is 
protecting an environment, protecting nature and its being when 
we see all of the--I am a tree hugger and have been for a long 
time. When you see what is happening with the disappearance of 
species, with things in the sea that are changing, and their 
ability to afford sea life nutrition and nourishment.
    So we have a war on our hands that we must win. And so, 
once again I thank you for being here. The fact that we are 
light in attendance doesn't mean that we are light in interest. 
The record will be kept open for questions that will be 
conveyed to you, and please if you get these questions, answer 
as thoroughly and as quickly as you can.
    With that, I go to the fact that Senator Merkley is in the 
last seat doesn't mean that his views or his knowledge is any 
different than those who are sitting up in the front.
    Senator Merkley.
    Senator Merkley [presiding]. Thank you very much, Senator.
    I wanted to ask a question about carbon sequestration. It 
has been pointed out at various times that when you build 
buildings with wood, you are taking a significant amount of 
carbon and taking it out of cycle, if you will. I was just 
wondering if any of you from the LEED system or the Green 
Globes system can comment on how that calculates, or if it is a 
factor in how you evaluate buildings.
    Mr. Gatlin. I am not sure that I can give you a specific 
estimate of the carbon sequestration of wood in buildings. We 
can certainly research that and provide that in follow up. But 
I would just mention that the committee that oversees our LEED 
rating system--again our products are all member-driven, 
consensus-based, and it is an open transparent system in the 
market--has spent the last year aligning the credit categories 
within the LEED rating system to the known environmental 
impacts and sort of the weighting between those environmental 
impacts.
    So carbon emissions comes up as the most significant aspect 
of the certification simply because of the magnitude of the 
climate change. We are looking at not only the energy 
associated with operations of the building, but the energy that 
it took to create the materials in the buildings, life cycle 
assessment if you will.
    So I do not have the specific figure on the carbon 
sequestration of wood, but it is within our Scientific Advisory 
Committee's goal of aligning the credits as much as possible 
with the ultimate environmental impacts.
    Senator Merkley. OK, thank you.
    Mr. Burt or Bryan.
    Mr. Bryan. Yes. The Intergovernmental Climate on Climate 
Change has determined a 100-year life cycle for dealing with 
products. If wood products in a building has less than a 100-
year life cycle, it is considered to be a closed loop. That 
means in its growth or absorption of CO<INF>2</INF>, and its 
eventual decay, that it will be a closed system. If it has 
longer than 100 years, it has to be accounted for, at least in 
their system, and I think most of the environmental rating 
systems and system systems are assuming that protocol.
    Wood looks very good generally when we do comparisons with 
other material for this reason. However, there are in larger 
buildings, you are dealing with structural issues and wood 
tends to have problems when you deal with multiple-story 
buildings because of the structural issues. Like for small 
buildings, wood is a very, very appropriate product. While we 
don't encourage any one material, when you go through the 
process very often those better materials from a carbon 
sequestering standpoint will shine.
    Senator Merkley. OK. Second, and thank you for your 
answers. A second question I wanted to ask about is in terms of 
GSA and the enormous number of buildings and enormous number of 
rooftops that they have, is the GSA fully engaged in perhaps 
the type of contracts energy--savings contracts where, 
subcontracts, if you will, out the installation of the solar 
panels, and then you basically get them installed for free, if 
you will, and over time come to own them.
    Has the GSA been proactive? Is there a tremendous amount 
more they can do? What is your sense of that?
    Mr. Gatlin. I will take a quick crack at that. I believe 
that GSA has been proactive, especially using its construction 
funding and its modernization funding to expand the adoption of 
green roofs, either light-colored roofs or vegetative roof 
systems which not only have heat island reduction benefits, but 
also stormwater mitigation benefits.
    I believe that with its existing stock, it has not moved 
aggressively yet to tap into the types of performance 
contracting vehicles that would allow them to take the savings 
stream from their utility bill payments and essentially front 
load them to some capital improvement efforts that could very 
well include those green roof upgrades.
    I believe the Department of Energy has handled the Federal 
energy performance contracting specifications and has vehicles 
that are more than available to do that within GSA stock.
    Senator Merkley. OK, great. Any other comments?
    Mr. Burt. GSA has prioritized the rooftop photovoltaics 
with some of the limited scope projects that they have released 
for the recovery funding, but I wouldn't be able to speak to 
the financial vehicle for making that happen.
    Senator Merkley. OK.
    Mr. Bryan. I think they are doing a very good job. I think 
on a couple of issues, I think all buildings should be what I 
call solar ready, even though they may not be putting on the 
system right now; that they keep the stairwells, elevator 
shafts, things like that, from protruding into the, let's say, 
unobstructed portions of the roof; try to gang them along the 
northern side of the building. Also vents and other types of 
things, we have a lot of problems with our air filters and 
ventilation fume hoods, things like that.
    Again, some buildings on my campus I know are completely 
inappropriate for solar, even though we have wonderful access 
in Arizona for solar energy, because of the design of the 
rooftop. And so I think we can develop some protocols to 
actually be solar ready and be available for solar in a few 
years if we can't do it right now.
    Senator Merkley. I think my time is up, but Senator 
Whitehouse has arrived. No wait, Senator Udall has arrived. 
Sorry, looking right past you.
    [Laughter.]
    Senator Udall. Thank you, Mr. Chairman. I appreciate it.
    Thank you to the panel, and great having all of you here 
today.
    I believe that one of the most productive things that the 
GSA could do to promote renewable energy would be to expand its 
efforts to install photovoltaic solar systems on the roofs of 
Federal buildings.
    In regards to solar power, we have great technology and 
manufacturing ability in the U.S., but we need to expand the 
demand for it in order to bring down the cost. What should 
Congress and GSA do to encourage solar installation on Federal 
buildings?
    Mr. Gatlin. One of the things that I mentioned in my 
testimony was extending the lifetime of renewable power 
contracts. Now, much of that will be for green-certified power 
through the grid, but there also are arrangements where the 
owner of the buildings can actually lease out the rooftop to 
the utility for the application of those.
    I don't know specifically within the acquisitions 
legislation what, if anything, needs to be changed, but I do 
know that there was some discussion on the House side about 
extending the time of those power purchase agreements to go 
beyond the current 10-year cap and that will actually allow for 
more dedicated development of green energy resources for 
Federal buyers.
    Mr. Burt. I think the extension of the power contracts 
period and the development of solar-ready buildings are both 
excellent ideas. I would also point out that it is important 
for GSA to make sure that they are doing the efficiency in the 
building as well so that a greater portion of the building's 
power can be provided by solar, either right away or eventually 
if they are solar-ready.
    Mr. Bryan. Yes, on my campus at Arizona State University, 
we put in only in about 9 months almost two megawatts of 
photovoltaics, and this year we are planning about eight more, 
so we will possibly by the end of the year 10 megawatts of 
installed power.
    And we did notice a lot of the problems. We had some 
limitations on our State constitution about public-private 
contracts that we had to get around to extend our period to 
deal with some of these power purchasing requirements. And so 
we had to take some sort of creative, or creative sort of cuts 
at that. And as I was saying, I would assume the same kinds of 
restrictions and inertia that exists within some Federal laws 
that I would like to think could be reviewed so we can take 
advantage of this third-party financing because it is very hard 
to get capital, particularly in State government, for any of 
these types of projects.
    Senator Udall. The GSA has decided to use LEED 
certification for its green building branding efforts, but we 
have been told that there are other significant green building 
certification standards. Should GSA choose one standard to 
allow a Federal building to be called green, to the exclusion 
of other equivalent standard-setting organizations?
    Mr. Gatlin. Since both of us on either side of Mr. Burt 
represent the two standards, we will look to him to be an 
objective arbiter. But I would just say that within our LEED 
system, we have set up a new organization called the Green 
Building Certification Institute which will be equipped to 
scale up the certification to tens of thousands or even 
hundreds of thousands of buildings.
    The demand for primarily LEED certification in the 
commercial building marketplace, both private and publicly 
owned, has grown exponentially since 2006, I think due to the 
realization not only of the cost savings and health benefits, 
but in many cases private buildings are simply worth more as an 
asset that are green-certified.
    So I would say that our system, I believe our third party 
certification system is the most robust. It is the furthest 
along and most established, and now through the Green Building 
Certification Institute, we have 10 global certification bodies 
that will be expanding our capacity many-fold. All of them are 
very familiar with the ISO requirements for certification--
International Standards Organization.
    So through those partnerships, I think our certification 
institute is very well equipped to handle the market demand.
    Mr. Bryan. Much of my testimony addressed or sort of 
countered that with the attributes of the Green Globes system. 
However, there are I think about last time I counted, there are 
seven other systems in operation and three in the works. So why 
do we go with one? I don't understand that. A government should 
not be giving any system, no NGO, a sort of leg up on any other 
system until we really go to the market and really shake these 
systems down.
    I think it is very important to take advantage of all the 
building inspectors out there. Over 100,000 building inspectors 
work for municipal governments. The International Code Council, 
which is a major body that develops building codes, have just 
completed the ICC 7000, which is the national green building 
standard. It is a residentially oriented standard, but that 
process is going to allow the training of building officials to 
do this inspection process in the field where they are in their 
own local jurisdictions.
    Green building is not rocket science. You don't need any 
very highly specialized persons to do it. A well-trained 
building inspector who knows the industry, has been working in 
the industry for some time, can do these inspections.
    Also, the State of California is developing their own green 
building standard. The ASHRAE 189 is developing a standard that 
will probably be introduced into the International Code Council 
process and be codified, so it actually could be then 
administered by building inspectors.
    And the other aspect, Green Globes is web-based and all we 
need to expand is adding more service. We do have the third-
party verification system in place, and that is being 
administered by the CSA America, which is an ISO certification 
organization.
    So we have a third-party hands-off process of certifying 
the verifies for the Green Globes system. I just want to 
underline the need to incorporate many stakeholders that are 
already doing a very effective job in building the industry, 
try to bring them into the system, particular the building 
inspectors.
    In doing green buildings, we are talking about thousands 
and thousands of buildings that we have to go through this 
process. We have to scale that up at a very high level of 
certification and verification, and we cannot do that by 
developing new organizations. We should use the existing 
manpower we have in the field.
    Mr. Burt. The most important thing here is saving the 
energy and saving the water in the buildings, and verifying 
that this is done correctly. So it shouldn't be necessarily a 
question of which tool or this tool or that tool. We need to 
make sure that the tools we are using are actually resulting in 
the savings that we need to have.
    I am not nearly as familiar with Green Globes as I am with 
LEED, and I can see that LEED does a very good job of that.
    Senator Udall. Thank you very much.
    Senator Merkley. I wanted to follow up on Senator Udall's 
question. Why are so many organizations forming? The LEED 
organization existed and Green Globes has jumped in, and you 
mentioned that there are seven, and that there are three more 
forming. What is the impetus behind so many different groups 
jumping into this conversation about how to identify a green 
building, if you will?
    Mr. Bryan. Well, I think there is tremendous demand out 
there, and again, organizations like ASHRAE have been in place 
for a number of years. The International Code Council has been 
in place for a number of years. They know the industry very 
well, and they want to make sure they are positioned as sort of 
the ramp-up is happening, which I think is happening now, 
especially with the stimulus money and the various other 
activities going on nationally.
    So these organizations I don't think have a hidden agenda. 
These are working. Both ASHRAE and ICC and Green Globes are 
working with the ANSI, the American National Standards 
Institute, consensus process. So these are open committee 
meetings that decide the various protocols for these documents. 
These are not closed activities being done by a member-only 
organization.
    Senator Merkley. Let me frame the question a little bit 
differently. Is it primarily differences in ideology as you 
balance different environmental components that drive the 
proliferation of organizations? Or the issue of how you ramp up 
to meet the demand, if you will, to get certification through 
the pipeline, if you will? I will just expand that to anyone.
    Mr. Burt. I think it is important to note that not all of 
the programs mentioned are actually direct competitors. They 
have arisen to occupy different niches in the green building 
industry. ASHRAE and ICC are putting things out in code 
language, which is slightly different from what LEED does, 
where it is an exceptional label, basically. You are 
documenting that you are far above the code level.
    There are also different systems that are focused on 
existing buildings and operations than are focused on new 
construction. So they are not all direct competitors.
    Also, for example, EPA's portfolio manager is directly tied 
into many of the other programs, so there is a lot of 
communication going on across all the borders as well.
    Mr. Gatlin. Senator, USGBC was set up as a member 
organization. Our members are companies, governments and 
institutional owners and managers of buildings. And we have 
been absolutely astonished that even while the construction 
market and other industries have had a significant downturn, 
that the growth in our membership has actually continued at a 
pace in excess of what it was in 2006 and 2007.
    The fastest-growing source of our members is building 
contracting professionals. I just want to add that it has 
always been in our foundations and our bylaws to have a 
completely open, transparent process. The rating system is 
developed by the industry experts who populate our membership, 
the 20,000 companies and organizations, and also has to be 
balloted--any of those changes to the rating system have to be 
balloted by our membership and approved.
    So we do not have a staff-driven rating system. We do not 
have a lobby interest-driven rating system. There is true 
balance across all sectors of the building industry.
    Senator Merkley. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Chairman Merkley.
    As you all know, the Congress put in place the Energy 
Independence and Security Act of 2007, which has specific 
targets in it that we have been talking about today, this 55 
percent in 2010 and then 100 percent in 2030. I would be 
interested in your opinions that we could accelerate those 
targets. I mean, the way we are proceeding at this point and 
from your vantage point, do you think those could be 
accelerated or moved up?
    Mr. Gatlin. It is our opinion that more can be done in the 
existing buildings arena from a green building perspective. The 
broad scope measures called I believe in Mr. Prouty's 
testimony, some of the generic measures that they are 
installing in buildings, are really the ticket there on the 
existing building side.
    Through every financing means necessary, whether it is 
through appropriations or whether it is through third-party 
financing vehicles such as performance contracting, there is a 
significant amount of opportunity in the Federal sector.
    And as was mentioned before, even when there has been a 
lighting or HVAC system upgrade within the last 10 years, there 
has been such technology innovation even within the last 5 to 
10 years that there will be many more cost-effective upgrades 
to go back to some of those buildings that were upgraded as 
recently as 10 years ago.
    Mr. Burt. I agree with what was just said. We can't 
necessarily predict when the technological innovations will 
happen. We are very confident that it will happen. So we have 
to be careful about setting hard goals and deadlines too far 
out in the future because we don't know the exact timing.
    That said, one thing I talked about in my testimony is the 
need for GSA to identify all the remaining cost-effective 
energy efficiency in the rest of the facilities and strategize 
how do we go about getting that. And I think if they did that, 
we would have a lot better sense of when it can be done, how it 
can be done, and how soon, and how much we can accelerate the 
process.
    Mr. Bryan. I also agree. However, I have seen in the 
industry in the past, from the private sector, is the first 
couple of years there seems to be a fairly good downward 
sloping that they are on a trajectory, beating the trajectory. 
That is because they are going at the low-hanging fruit, the 
easy things. Lighting, variable speed motors, things like that 
are easy things to do and retrofit. The harder things are re-
glazing, reinsulation, large fit-out of large mechanical air 
conditioning systems. Those are the big ticket items.
    So my recommendation is that we have to be diligent. We 
have to look to the long term. We have to have the resources 
there for the long term, the heavy lifting, and going beyond 
the low-hanging fruit as far as the conservation and efficiency 
efforts are concerned.
    Senator Udall. Thank you very much, and thank you, Chairman 
Merkley. I see we have been joined by Senator Klobuchar.
    Senator Klobuchar [presiding]. Thank you very much.
    Thank you all for being here. We are doing a lot of work 
with green buildings in my State, the State of Minnesota. 
People don't always think of it as a solar State given how cold 
it is, but we are doing a lot with that, as well as wind and 
other things.
    I just want to talk in more detail about the LEED 
certification process. I know you just mentioned that, Dr. 
Bryan. I have heard a lot about that from our people, the cost 
associated with it and potential improvements to it. Could you 
talk about the costs associated with it? How much you estimate 
it is? And what we could do to improve it?
    Mr. Bryan. Well, again, I was sort of countering the LEED 
system with another system that I felt is actually more cost 
effective because it is a much lower first entry cost into the 
system. It is web-based. It is very low cost, with ability to 
interact with the system. Documentation is minimum because we 
have onsite verification of a third party verifier.
    So this reduces the cost. Much of the LEED cost is not the 
direct cost as far as paying for the system. It is the indirect 
cost of the documentation and a lot of the stuff you need to 
collect for submittal to get your certification.
    And as I mentioned, the Green Globes system has an onsite 
third party reviewer that basically helps alleviate a lot of 
that stuff. The material still has to be there, but it is done 
onsite in a kind of a day-long walk through the building. When 
you see something you know it is in there, rather than just 
something in a specification that is submitted as a submittal.
    So that is one of the major differences. So I think it is a 
little bit more cost effective for that reason.
    Senator Klobuchar. Anyone want to add anything?
    Mr. Gatlin. Senator, if I may, representing the U.S. Green 
Building Council. We have had to make enhancements to our 
system and also expand our contractor pool substantially, as 
there are now over 20,000 buildings in the pipeline. So that 
20,000 buildings has scaled up dramatically from just fewer 
than 5,000 about 4 years ago.
    Our fees for providing the certification essentially are 
just directly to cover the review expenses. It comes in at 3.5 
cents per square foot, where typically the green building 
improvements yield a dollar or more per square foot in direct 
operating savings, and even indirect savings in many cases, as 
GSA showed in its post-occupancy study, a 13 percent reduction 
in maintenance costs down the line.
    So they are fairly small. I think extremely small relative 
to the benefits. And I think what you don't get by simply 
referencing the rating system as opposed to pursuing 
certification is the added impetus to do it right once you know 
you are going to go through a third party review. And that has 
in many cases sort of flushed out some mistakes in the process 
that can go back and be corrected.
    Senator Klobuchar. You know, I hear it over and over again 
that they are not doing LEED because it is just too expensive. 
Maybe when you described it as three cents, that is probably 
the best way to describe it. For them, they are looking at how 
much of a cost it would be when they are trying to do the 
environmentally right thing, so on the margin it is maybe more 
expensive to build, and then they look at this LEED thing, so 
they don't do it. They go to ENERGY STAR or some other thing.
    So that is what I am trying to grapple with here, because I 
think nearly every building that I have been to, except the few 
that did the LEEDs in our State, say we are not going to do it.
    So I just think it is an issue. I have been surprised at 
how much it has come up when I have been out and about, really 
all over the Country.
    The other thing I am trying to figure out as we try to push 
for more green buildings, more energy efficient buildings, what 
the factors are that make some metropolitan areas have more of 
them. I am asking this question very openly, not because I know 
the answer, but is it State laws? What is it, like Portland is 
No. 1; Minneapolis-St. Paul is number 25; Atlanta is No. 3. You 
know, what is the thing that makes incentives for more green 
buildings?
    Mr. Gatlin. I think in Portland, in Chicago, and several 
cities around the Country, almost 50 cities--I am sorry, in 
almost 35 States and over 100 jurisdictions there are 
incentives. And those certainly helped in the early days. The 
early adopters were either in cities with incentives or where 
governments through their own took on an executive order 
mandate to have green buildings.
    In Atlanta and in other cities, we have seen a really 
robust commercial market embrace LEED. There is increasing 
empirical studies, as well as evidence through broker 
transactions that green buildings, LEED-certified buildings, 
sell at higher transaction costs, actually have more attractive 
rental rates. So there is a market demand as well.
    Senator Klobuchar. Mr. Burt.
    Mr. Burt. I think the incentives are very helpful, 
especially when they are structured in a way that they set a 
performance target and tell the industry to go do it, because 
then the industry responds. They learn how to do it, and they 
learn how to do it well. They bring the costs of doing it down 
so that we get a nice feedback cycle where we continue to learn 
about how to do the buildings.
    I think it is also very helpful once the process has 
happened that the market then values those buildings greater 
because they realize this is a better building, it is a better 
space, and it is much better across the board. And that is how 
you get a continuing cycle of green building.
    Senator Klobuchar. Thank you.
    Mr. Bryan. As an educator, I think education is a major 
force. I know I am training the next generation of students who 
will be architects and engineers. They are really hungry for 
this information, and I know they are going to go out and do a 
good job because they are getting well trained. I think all our 
universities have courses on green buildings now, among all the 
architectural and construction schools and many of the 
engineering schools across the country. It is an exciting area.
    I think also on the local level, again education by again 
professional organizations or their membership, the American 
Institute of Architects, ASHRAE, National Association of--all 
these organizations I think are doing a much more effective job 
than they did a few years ago on educating their membership to 
these issues.
    As I mentioned before, it is not rocket science, but there 
is some good preparation and understanding, especially in the 
use of computer modeling, computer simulation. We have gotten 
in a lot of trouble, a number of people have been using tools, 
predicting performance and we have not seen that performance in 
reality, and that has given, I think, some of the systems a 
questionable--some of the systems have been put into question 
because of some poor consultants using some tools that they 
shouldn't have even had a driver's license before using a 
computer program like DOE-2 or one of those other programs out 
there.
    So there is a lot we have to do in education to ramp up 
everybody's level of expertise.
    Senator Klobuchar. All right. Thank you.
    All right. Well, that is a good end. I want to thank all of 
you for being here, and the hearing is adjourned.
    [Whereupon, at 11:30 a.m. the committee was adjourned.]
    [Additional statements submitted for the record follow:]

          Statement of Hon. Benjamin L. Cardin, U.S. Senator 
                       from the State of Maryland

    Madam Chairman, thank you.
    Over the last 2 years we have heard testimony from a number 
of individuals. A little over a year ago, for example, we heard 
from Dr. Pachauri, and we are grateful that he has come back to 
provide us with a further update on the science of global 
warming.
    I want to thank Chairman Boxer for her work in keeping the 
focus on sound science as this debate continues.
    While the list of witnesses has included the occasional 
obligatory nay-sayer, we have seen a steady stream of 
scientists who have provided a remarkably consistent set of 
facts regarding:
     the state of the global climate system,
     projections on how the climate system is changing, and
     the likely impacts these changes will have on health and 
human welfare, agriculture, transportation systems, and 
important ecosystems like the Chesapeake Bay.
    Much of the testimony has been informed by the latest, 
peer-reviewed science and represents a consensus of the 
scientific community on the nature of the climate system's 
warming, the causes for that warming, and the degree to which 
this warming will continue.
    Climate change will likely have an impact on our Nation's 
treasure, the Chesapeake Bay. Possible impacts for the 
Chesapeake include increased sea-levels, lower dissolved oxygen 
levels, more precipitation, and changes in various species' 
abundance and migration patterns. Many species will deal with 
the interaction of several climate change effects, which could 
impact their ability to survive in the Bay region.
    It is not only wildlife that are threatened by climate 
change--the EPA has found that increasing greenhouse gas 
concentrations pose a threat to human health due to a number of 
factors including more deaths attributed to heat and the 
increase in vector-borne diseases. In Baltimore, the EPA 
projects that a 3 degree Fahrenheit overall increase in air 
temperature could increase the heat-related death toll by 50 
percent from 85 to 130 people annually.
    The research upon which these findings are based is rooted 
in an extensive, careful analysis of past and present 
observations of the atmosphere and ocean coupled with advanced 
numerical predictive models.
    The science record is remarkable in another key aspect. 
Time is not on our side. The scientific community consistently 
warns us that the longer we wait to take aggressive action to 
curb greenhouse gas emissions, the steeper the climb will be to 
meet our targets.
    Thankfully, today we have not simply a strong scientific 
consensus on the issue. We also have an increasing body of 
evidence that our efforts to address climate change will result 
in a number of net positives for America and the world.
     Our national security is enhanced as we reduce our 
reliance on foreign sources of oil.
     Our economy will be recharged as we move to a sustainable 
energy system and the thousands of green jobs it will produce 
in solar, wind and bio-energy development and energy efficiency 
projects.
     And, lowering greenhouse gas pollution will almost 
certainly also result in a lowering of other air pollutants, 
meaning our citizens will be breathing cleaner air.
    Thankfully, today we have both an Administration in the 
White House as well as the congressional leadership we will 
need to tackle this extraordinary challenge.
    I look forward to hearing from today's witnesses and 
learning more about the latest climate science research.
    And I look forward to using this hearing as a strong 
springboard for us as we confront one of the greatest 
challenges of our age. With your strong leadership, I look 
forward to drafting and passing a climate change bill this 
year. Let's get started.
    Thank you, Madam Chairman.

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Thank you, Madam Chairman, for holding this hearing. I am 
pleased to have the opportunity once again to discuss energy 
efficiency within our committee.
    Using less to do more is a fundamental economic principle 
that American industry has practiced with great success. Its 
application has helped the United States rise in prosperity 
and, I believe, will be a key element of our economic recovery. 
Moreover, increased productivity in the form of energy 
efficiency and innovation--along with developing new domestic 
sources of energy and ensuring a diverse energy supply--are 
essential to strengthening our Nation's energy and financial 
security. For these reasons, it is important to pursue 
opportunities for energy efficiency and innovation in our 
public buildings.
    While I was not a supporter of the Stimulus bill, it did 
contain some productive elements. For example, it provides an 
unprecedented opportunity for GSA to make investments in the 
existing stock of Federal buildings. It is extremely important 
that GSA's decisions make these buildings more energy efficient 
and that such improvements are cost-effective. It is also 
important that the choices GSA and other Federal agencies make 
to ``go green'' deliver measurable performance results.
    It's my understanding that so-called ``green'' buildings 
don't always perform as intended. This raises serious concerns 
for me, and it also raises fundamental questions: What research 
still needs to be done on the actual benefits of green 
buildings? What standards and benchmarks are currently being 
used for various aspects of building design and certification? 
How can the Government make sure that we are spending money on 
the efforts that ensure we are meeting our energy goals and not 
creating unintended burdens on our taxpayers and communities?
    I am concerned that GSA selected LEED as its only category 
of ``green'' building for new construction. I believe that the 
increased interest in green buildings and advances in 
technology in recent years have and are creating new building 
rating systems. These systems should be allowed to compete in 
the market and Government agencies should be able to determine 
which system meets their performance requirements. I do not 
think that GSA should be in the business of selecting one 
system over another. Additionally, we need to practice careful 
oversight to ensure that the best rating systems are being used 
in Government decisions.
    I am pleased to have Dr. Harvey Bryan, Professor at the 
Arizona State University School of Architecture and Landscape 
Architecture with us today on behalf of the Green Building 
Initiative. He will share his expertise with us today and 
update us on what GBI has been doing since our last hearing. I 
am also looking forward to hearing from Acting Administrator 
Paul F. Prouty as well.
    Thank you again, Madam Chairman, for this opportunity.

    [Additional material submitted for the record follows:]
    
    [GRAPHIC] [TIFF OMITTED] 
    
                                 [all]
                                 
</pre></body></html>
